 REVIEW OF GSA GLOBAL SUPPLY’S
        EXPANDED DIRECT
       DELIVERY PROGRAM
REPORT NUMBER A040257/F/A/V05001

          JUNE 6, 2005
Date:           June 6, 2005

Reply to        William D. Anthony, Audit Manager
Attn of:        Acquisition Programs Audit Office (JA-A)

Subject:        Review of GSA Global Supply’s Expanded Direct Delivery Program
                Report Number A040257/F/A/V05001

To:             Donna D. Bennett
                Commissioner, Federal Supply Service (F)


This report presents the General Services Administration (GSA) Office of the
Inspector General’s review of the Federal Supply Service (FSS) Office of Global
Supply’s Expanded Direct Delivery Program (EDD). The objectives of the review
were to answer the following questions:

Are orders placed under GSA Global Supply’s Expanded Direct Delivery
program processed in a timely manner? Are improvements needed in the
Expanded Direct Delivery Program before Global Supply considers
broadening the scope of products available?

To accomplish the objectives, we:

      •   Reviewed the EDD Blanket Purchase Agreement Statement of Work,
          Standard Operating Procedures, and Federal Acquisition Regulations
      •   Interviewed associates from GSA Global Supply, the Region 6 Finance
          office (accounts receivable), the National Customer Service Center, and
          the FSS Office of the Chief Information Officer
      •   Reviewed EDD sales information and error/exception reports from
          October 2004 through January 2005 and selected a sample of
          transactions for testing to determine if EDD orders were being processed
          in a timely manner

The audit work was performed during the period of September 2004 through
February 2005. The survey phase of the audit involved interviewing appropriate
officials involved in the EDD process and reviewing EDD error reports and sales
data. We also did some limited sample testing of EDD transactions in an effort to
determine whether EDD orders were being filled in a timely manner. Our review
was principally conducted in FSS’ Central Office, located in Arlington, Virginia.
The audit was conducted in accordance with generally accepted government
auditing standards.


Background

GSA Global Supply is charged with directing the policy, programs, and worldwide
operations for the Stock, Special Order, and Expanded Direct Delivery (EDD)
Programs. In February 2004, the GSA Global Supply Expanded Direct Delivery
Program began offering tools to GSA customers, and office products were added
to the program in May 2004. The intent of the program was to offer a greater
variety of products to GSA customers through a single point of sale.

Two blanket purchase agreements (BPAs) have been awarded: Office Products
to Boise Office Solutions (Boise), located in Michigan with an approximate two
year value of $45 million; and Tools to J&L Industrial Supply (J&L), located in
Chicago with an approximate two year value of $55 million. Customers
worldwide are able to order thousands of new products from both of these
categories using EDD. In January of 2005, Global Supply added approximately
2,000 new office supplies to its product line.

The intent of the Expanded Direct Delivery Program is to provide customers a
seamless integration between the varieties of mission-strategic products
currently stocked in GSA depots, as well as significant portion of the qualified
contractor’s catalog. FSS customers have full, real time visibility of products
offered, inventory availability, order status and order tracking.


Results of Audit

Orders under the GSA Global Supply’s EDD program are not processed in a
timely manner as prescribed in the contract. While the contract requires that 95
percent of orders be delivered within seven days of receipt, we found that less
than 95 percent of the orders were fulfilled within the required number of days.
Backorders were as old as 200 days. Further, the EDD vendors did not always
return a Shipment Status Record, thus inhibiting the research on unfulfilled
orders. We believe establishing incentives for EDD contractors to fulfill their
performance metric could eliminate these shortcomings. In addition, Global
Supply intends to expand the EDD program through the use of Blanket Purchase
Agreements. Prior to any expansion, Global Supply should obtain input from
GSA’s General Counsel office and FSS’ Acquisition Management Center
regarding acceptability of using Blanket Purchase Agreements.




                                         2
Timely Order Fill

The EDD Blanket Purchase Agreement Statement of Work includes a
performance metric that 95 percent of orders are delivered within seven days of
receipt. Based on a sample of three transaction days, Boise and J&L had order
fill rates of approximately 86 percent and 82 percent respectively. In addition, we
found backorders as old as 200 days. Global Supply conducts periodic
teleconference discussions with both vendors addressing backorders, billing
issues, and other EDD issues principally concentrated on exception reports in an
effort to improve vendor performance. However, because performance metrics
do not include incentives for timely order processing, and because a
performance metric for filling backorders does not exist, Boise and J&L may not
be as diligent as expected. While we do not know the impact on customer
satisfaction, delayed shipping and backorders can negatively impact federal
customers’ confidence in the program.

The Blanket Purchase Agreement for Expanded Direct Delivery Program
Commodities: Tools, Maintenance and Repair Operations, and Office Supplies,
dated March 21, 2003, provides in the Statement of Work (SOW) in paragraphs
1.6 and 3.0 that delivery time required is no later than 7 days after receipt of
order, and that the contractors’ expected performance is 95 percent on time
delivery—original due date.

Global Supply generates exception reports designed to track those EDD orders
that are not finalized within seven days of the customer order date. We obtained
EDD sales data for three separate transaction days (November 4 and December
7, 2004, and January 6, 2005) and corresponding exception reports (November
15 and December 16, 2004 and January 14, 2005). We found the following:


                                           Boise
                                       Nov. 4, 2004      Dec. 7, 2004       Jan. 6, 2005
   No. of Orders                           429                174                114
   Unfilled orders after 7 days             71                 17                 12
   % filled orders                         83.4              90.3                89.5

                                            J&L
                                      Nov. 4, 2004       Dec. 7, 2004        Jan. 6, 2005
  No. of Orders                            380                211                 237
  Unfilled orders after 7 days              74                 32                  42
  % filled orders                         80.5               84.8                 82.3
 Note: Unfilled orders include backorders, partial backorders, and those orders with no shipping
      status.



                                               3
Global Supply monitors EDD vendor performance utilizing electronic data
specifically generated for EDD. Global Supply’s own monitoring, October
through December 2004, reflects Boise’s rate at approximately 85 percent and
J&L’s at approximately 84 percent. We believe incentives in future contracts may
enhance contractor performance. For example, establish a three-year contract
with possible three one-year extensions. Contractor fulfillment of performance
metric would equate to automatic one-year extension.

During our test work, we found pending backorders as old as 200 days. The
following chart reflects the age of backorders as of December 16, 2004:


                                                  No. of Backorders
                       Days Outstanding           Boise      J&L
                             > 150                 14         4
                            90-149                 69         15
                             30-89                 68         168
                              < 30                 137        266
                             Total                 288        453


Currently, the SOW does not provide performance metrics for backorder
fulfillment. We believe both performance metrics and incentives should be added
to future contracts. For example, create a timetable for fulfillment of backorders
within a certain number of days, preferably less than 60 days. In addition, for all
current outstanding backorders, give contractors seven workdays to clear orders
over 150 days old, fourteen workdays to clear orders 90 to 149 days old, and
twenty-one workdays to clear orders 30 to 89 days old.

While the majority of unfilled orders after seven days were due to backorders, the
vendor did not return a shipping status record (856) in some cases. Therefore,
both Global Supply and the customer are unable to determine shipping status
information for these orders, in some cases, for several months.

                                                  No. of Missing 856s
                       Days Outstanding           Boise1      J&L2
                             > 150                  6          6
                            90-149                  14        39
                             30-89                  40        121
                              < 30                  38         92
                             Total                  98        258
1
Of the 98 missing 856s, 63 are from orders placed on 10/25, 10/28, and 11/17.
2
Of the 258 missing 856s, 153 are from orders placed on 10/25, 11/12, and 11/18.




                                              4
We believe that for all missing shipment status records, both Global Supply and
the contractors should determine the status within 15 workdays.



Recommendation

We recommend that the FSS Commissioner have the Assistant Commissioner
for Global Supply:

   1. Establish incentives for EDD contractors to fulfill their performance metric
      on orders fills and backorders, and establish a system to address missing
      shipment status records.

Management Comments

Management generally concurs with the recommendation.


Expanded Direct Delivery Competition and Price Analysis Questions

In December 2004, Global Supply sent two contract-related questions about their
Expanded Direct Delivery program to GSA’s General Counsel and FSS’
Acquisition Management Center. Global Supply desires to significantly
(undefined) expand the use of prime vendor contract vehicles and to use Blanket
Purchase Agreements (BPAs) as much as possible to accomplish the expansion.
To date, responses have not been received from either addressee regarding the
two questions concerning competition and price analysis. We believe these
questions should be answered before further program expansion occurs.

41 U.S.C. 253 (a) (1) (A and B) relate that an executive agency in conducting a
procurement for property or services shall obtain full and open competition
through use of competitive procedures. In addition, the agency shall use the
competitive procedure or combination of competitive procedures that is best
suited under the circumstances of the procurement.

Federal Acquisition Regulation Subpart 8.405-3 (d) (ii) provides that for Blanket
Purchase Agreements, the ordering activity that established the BPA shall review
it at least once a year to determine whether the BPA still represents the best
value.

Global Supply chose to use a competitive procedure which combines
procurement methods. Using BPAs, Global Supply competitively accepted bids
from tool and office supply companies who already had Multiple Award Schedule


                                        5
contracts. The products offered by bidding contractors would not duplicate
schedule, warehouse, and/or NIB/NISH items.

Global Supply reportedly sent the following questions in December 2004 to GSA
General Counsel and FSS’ Acquisition Management Center:

      -   Will the strategy satisfy the Competition in Contracting Act (CICA)
          requirements?
      -   At what point will the original market basket (price) comparison
          analysis lose its validity?

Our discussions with a representative of the GSA General Counsel’s office and
FSS’ Acquisition Management Center resulted in both relating, unofficially, that
the use of a BPA as competed was sufficient to meet CICA requirements. And
both offered that periodic, undefined price analysis would be necessary except in
cases of product substitution. Both were working on responses to Global Supply.


Recommendation

The auditors concur with Global Supply in delaying expansion plans until
responses to the CICA and price analysis questions are received and evaluated.
We recommend that the FSS Commissioner have the Assistant Commissioner
for Global Supply upon receipt and evaluation of the responses:

   2. Incorporate suggested competition and/or price analysis strategies into the
      EDD program.

Management Comments

Management generally concurs with the recommendation.


Issues For Further Study

   1. Guidance for submitting invoices

      Associates from GSA Global Supply and the Region 6 Finance Office
      (accounts receivable) indicated that vendors could facilitate EDD order
      processing by accurately and completely submitting invoice records. We
      believe that creating formal guidance to the vendors may help eliminate
      any problems with invoicing.

   2. Tracking orders for export shipments


                                         6
      Most export orders are shipped to an Export Packing Facility (EPF) by the
      vendor before being sent overseas. Global Supply is not able to provide a
      shipping status to the customer once the order is sent to the EPF.

   3. GSA payment on orders that have not been shipped

      Our review of EDD exception reports revealed that as of December 16,
      2004, it appears that GSA paid on over 200 line items despite the vendors’
      failure to ship the line item.



Internal Controls

Except for the control aspect of order processing discussed in the Results of
Review section, this review did not require, nor did we perform, a review of
internal controls.

We wish to thank you and your staff for the courtesies extended to the auditors
during this review. Should you or your staff have any questions concerning this
review, please contact me at (703) 603-0189.




WILLIAM D. ANTHONY
Audit Manager
Acquisition Programs Audit Office (JA-A)




                                        7
                 REVIEW OF GSA GLOBAL SUPPLY’S
               EXPANDED DIRECT DELIVERY PROGRAM
                    REPORT NUMBER A040257



                                                              Copies

Commissioner, Federal Supply Service (F)………………………………………..3

Office of the Chief Financial Officer (B)…………………………………………….2

Audit Follow-up and Evaluation Branch (BECA)…………………………………..1

Assistant Inspector General for Auditing (JA and JAO)…………………………..2

Assistant Inspector General for Investigations (AIGI)……………………………..1




                                B-1
